No. _____________

In The
Supreme Court of the United States of America
JAMES CLAY AND AUDREY OSCEOLA,
Petitioners,
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT

CERTIFICATE OF SERVICE

I certify that today I served this Brief in Opposition by first-class U.S. mail in
accordance with Supreme Court Rule 29.3 on the following:
Elizabeth B. Prelogar
Acting Solicitor General of the United States
Room 5616
U.S. Department of Justice
950 Pennsylvania Ave., NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
Counsel for United States

Charles P. Rettig
Commissioner of Internal Revenue
Internal Revenue Service Building
1111 Constitution Ave., NW
Washington, D.C. 20224
(202) 622-5000
appellatematters@irscounsel.treas.gov
Counsel for Internal Revenue Service
Richard E. Zuckerman
Principal Deputy Assistant Attorney General
Joshua Wu
Deputy Assistant Attorney General
Francesca Ugolini
Jacob Chirstensen
Robert J. Branman
Attorneys, Tax Division
Department of Justice
Post Office Box 502
Washington, D.C. 20044
Appellate.TaxCivil@usdoj.gov
Counsel for Respondent
Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Petition for a Writ of Certiorari was transmitted to the above-listed
counsel at the referenced email addresses.

August 13, 2021

By _s:Robert O. Saunooke_________
SAUNOOKE LAW FIRM, P.A.
ROBERT O. SAUNOOKE
PO BOX 309
319 BIG COVE ROAD
CHEROKEE, NC 28719
PHONE: (561) 302-5297
Counsel for Petitioners

